SHERYL J. LOWENTHAL

Attorney at Law
9130 South Dadeland Boulevard Suite 1511
Miami, Florida 33156-7851
E-Mail: sjlowenthal@appeals.net
Tel: 305-670-3360
Admitted to Practice
Fax: 305-670-1314
Florida & Kentucky
December 4, 2020
Scott S. Harris, Clerk of Court
Supreme Court of the United States
One First Street NE
Washington DC 20543
Re:

Bernard Moore v. The United States of America
Eleventh Circuit Court of Appeals No. 17-14370

Dear Mr. Harris:
I have filed the documents listed below with the Court electronically, and have
served copies by E-mail on the Solicitor General of the United States. The
documents enclosed with this letter are:
(1) Petition for Writ of Certiorari With Incorporated Appendix
And with Motion to Proceed IFP attached 11 copies
(2) Notice of Appearance – 1 copy
(3) Proof of Service – 1 copy
(4) Certificate of Word Limit Compliance – 1 copy
Thank you kindly for receiving and docketing these materials.
Sincerely,

/s/ Sheryl J. Lowenthal
Sheryl J. Lowenthal

CJA Counsel for Petitioner Bernard Moore

